OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/WEST BANK GAZA’S
OVERSIGHT OF RESOURCES MANAGED
BY AMERICAN NEAR EAST REFUGEE
AID UNDER COOPERATIVE AGREEMENT
294-A-00-02-00229-00


AUDIT REPORT NO. 6-294-05-004-P
July 6, 2005




CAIRO, EGYPT
Office of Inspector General



       July 6, 2005

       MEMORANDUM

       TO:                        Mission Director, USAID/West Bank and Gaza, James A. Bever

       FROM:                      Acting Regional Inspector General/Cairo, Catherine Trujillo /s/

       SUBJECT:                   Audit of USAID/West Bank Gaza’s Oversight of Resources
                                  Managed by American Near East Refugee Aid Under
                                  Cooperative Agreement 294-A-00-02-00229-00
                                  (Audit Report No. 6-294-05-004-P)

       This memorandum transmits our final report on the subject audit. This report does
       not include any recommendations for USAID/West Bank and Gaza’s action.

       I want to express my sincere appreciation for the cooperation and courtesy extended
       to RIG/Cairo staff during the audit.




Regional Inspector General
Plot 1/A off El Laselki Street,
New Maadi, Cairo
Postal #11435
www.usaid.gov
CONTENTS
Summary of Results ..........................................................................................................1

Background .......................................................................................................................2

Audit Objectives ...................................................................................................................2

Audit Findings ....................................................................................................................3

Did USAID/West Bank Gaza approve ANERA’s implementation
plans to ensure proposed activities complied with the statutory
requirements prohibiting the award of U.S. funds to Palestinian
Authority ministries, municipalities or other local government
entities?................................................................................................................................3

Did USAID/West Bank Gaza concur on the selection of
subaward recipients and the substantive provisions of the
subawards?..........................................................................................................................4

Appendix I – Scope and Methodology ............................................................................6
SUMMARY OF RESULTS
USAID/West Bank and Gaza awarded a $4,000,000 three-year cooperative agreement
to American Near East Refugee Aid (ANERA). ANERA’s program was to develop job
opportunities through community infrastructure projects within communities in the
Nablus, Ramallah and Jericho Governorates. As of March 31, 2005, ANERA had
implemented 59 projects, costing approximately $2.8 million. To implement the project
ANERA signed grant agreements with municipalities and village councils to take
responsibility for the operation and maintenance of the infrastructure projects and to
provide community contributions. In addition ANERA awarded construction contracts to
local contractors to perform the project work. (See page 2)

RIG/Cairo performed this audit to determine if USAID/West Bank Gaza (1) approved
ANERA’s implementation plans to ensure proposed activities complied with the statutory
requirements prohibiting the award of U.S. funds to Palestinian Authority ministries,
municipalities or other local government entities, and (2) concurred on the selection of
subaward recipients and the substantive provisions of the subawards. (See page 2)

USAID/West Bank and Gaza approved ANERA’s implementation plans. In addition,
USAID/West Bank and Gaza followed the required procedures to initiate a review of the
subcontractor and its key officials to ensure compliance with Executive Order 13224
Blocking Property and Prohibiting Transactions With Persons Who Commit, Threaten To
Commit, Or Support Terrorism to ensure proposed activities complied with the statutory
requirements prohibiting the award of the U.S. funds to Palestinian Authority ministries,
municipalities or other local government entities. (See page 3)

USAID/West Bank and Gaza did not concur on the selection of the subaward recipients
and/or the substantive provisions of the subawards. The reason why, is USAID/West
Bank and Gaza was not required to concur on the subawards and/or substantive
provisions of the subawards based on USAID/West Bank and Gaza’s Mission Order No.
17, titled Construction Oversight under Cooperative Agreements. (See page 4)

This report does not include any recommendations. We provided USAID/West Bank
and Gaza an opportunity to provide formal comments on the draft report; however the
Mission chose not to provide written comments to include as part of the final report.




                                                                                       1
BACKGROUND
USAID/West Bank and Gaza awarded a $4,000,000 three-year cooperative agreement
to American Near East Refugee Aid (ANERA). ANERA’s program was to develop job
opportunities through community infrastructure projects within communities in the
Nablus, Ramallah and Jericho Governorates. As of March 31, 2005, ANERA had
implemented 59 projects costing approximately $2.8 million.

ANERA designed the program to partner with municipalities and village councils to
engage local governments in identifying the community needs and jointly soliciting and
reviewing the construction proposals. Furthermore, both ANERA and its government
partners jointly monitored and evaluated the subcontractor’s construction progress. The
municipalities and village councils contributed cash or in-kind resources to the project
and managed the operations of the project upon completion of the construction. ANERA
formalized this partnership with the municipalities and village councils by awarding
grants to the local government bodies with the understanding that both ANERA and the
local government would jointly manage the USAID funded projects.

ANERA awarded subcontracts to local construction companies and paid the contractors
with USAID project and cost sharing funds based on construction progress. ANERA
reported quarterly to USAID/West Bank and Gaza updates on the project activities and
informally through email and transmittal memorandums as ANERA needed to address
progress issues with USAID/West Bank and Gaza.


AUDIT OBJECTIVES
This audit was conducted as part of RIG/Cairo’s audit oversight responsibilities of the
West Bank and Gaza program. Under the Consolidated Appropriations Act of Fiscal
Year 2004, Section 566, funds are made available to the Office of Inspector General of
USAID to audit the activities in the West Bank and Gaza to determine compliance with
the prohibition of providing assistance to individuals or entities engaged in terrorist
activity. The audit was conducted to answer the following questions:

•   Did USAID/West Bank Gaza approve ANERA’s implementation plans to ensure
    proposed activities complied with the statutory requirements prohibiting the award of
    U.S. funds to Palestinian Authority ministries, municipalities or other local
    government entities?
•   Did USAID/West Bank Gaza concur on the selection of subaward recipients and the
    substantive provisions of the subawards?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                       2
AUDIT FINDINGS
Did USAID/West Bank Gaza approve ANERA’s implementation
plans to ensure proposed activities complied with the statutory
requirements prohibiting the award of U.S. funds to Palestinian
Authority ministries, municipalities or other local government
entities?

USAID/West Bank and Gaza approved ANERA’s implementation plans. In addition,
USAID/West Bank and Gaza followed the required procedures to review the ANERA’s
subcontractors awarded, under this cooperative agreement, and its key officials to
ensure compliance with Executive Order 13224 Blocking Property and Prohibiting
Transactions With Persons Who Commit, Threaten To Commit, Or Support Terrorism to
ensure proposed activities complied with the statutory requirements prohibiting the
award of the U.S. funds to Palestinian Authority ministries, municipalities or other local
government entities.

Approval of Implementation Plans

USAID/West Bank and Gaza’s cooperative agreement with ANERA included a section
describing USAID’s substantial involvement during performance of the award in
accordance with Automated Directive System 303.5.11a. One requirement under the
substantial involvement is that USAID/West Bank and Gaza must approve ANERA’s
implementation plans. In addition according to the terms of the program schedule,
USAID/West Bank and Gaza was also required to approve significant project changes.

ANERA submitted an initial and revised implementation plan to USAID/West Bank and
Gaza on October 15, 2002, and December 16, 2002, respectively for its first year of
program implementation. USAID/West Bank and Gaza approved ANERA’s first year
implementation plan in writing on January 21, 2003. ANERA submitted its second year
implementation plan on November 6, 2003 and USAID/West Bank and Gaza approved
the plan in writing on February 24, 2004.

ANERA’s first year implementation plan described how the projects would be
implemented. ANERA described that through a joint partnership with municipalities and
village councils, construction projects within the respective communities would be
implemented. ANERA explained that under small and large scale projects these
municipalities and village councils would sign a grant agreement with ANERA to take full
responsibility for the implementation, operation and maintenance of the project. The
partner was responsible to open a joint account with ANERA who would transfer the
project funds into the account. The municipality and village council were also
responsible for depositing the community contribution into the same project account.

Subsequent to the approval of the first year implementation plan, ANERA submitted
requests to the Cognizant Technical Officer for approvals to modify the scopes of
on-going projects, change the initial approved cost estimate, or add new projects under
the program.



                                                                                        3
To determine how ANERA controlled and accounted for the project funds we selected
four projects with four different local government bodies. For each of these projects
ANERA provided supporting documentation demonstrating (1) the transfer of funds from
ANERA into the joint project accounts, (2) the approval of payment of funds from the
joint account to the construction contractors, and (3) the control of the disbursement of
funds. The testing of the implementation plan with these four projects at the recipient
level demonstrated compliance with the statutory requirements prohibiting the award of
U.S. funds to Palestinian Authority ministries, municipalities or other local government
entities.

Vetting1 of Contractors

U.S. Executive Orders and U.S. law prohibits transactions with, and the provision of
resources and support to, individuals and organizations associated with terrorism. It is
the legal responsibility of the contractor/recipient to ensure compliance with these
Executive Orders and laws.

USAID/West Bank and Gaza issued guidance requiring foreign contractors (receiving
over $100,000 annually), foreign non-governmental organizations, U.S. contractors, and
contractors funded under the Cash Transfer Grant Agreement to the Palestinian
Authority to be tested, or vetted, for affiliation with terrorism.

USAID/West Bank and Gaza maintained on file the supporting documentation that
ANERA submitted for five construction contractors and the key individuals that were
tested for affiliation with terrorism. In each case, USAID/West received notice that the
vetting process did not identify the individuals or the organizations to have such
affiliation.

USAID/West Bank and Gaza did not require ANERA to submit names of key personnel
within the municipalities or village councils for which it entered into grant agreements
with. The reason is because the aforementioned guidance includes a section that states
“Government officials will be exempt from vetting with respect to assistance provided to
them in their official capacities”. As a result, USAID/West Bank were not required to vet
the key individuals within the municipalities and village councils acting within their official
government capacity.


Did USAID/West Bank Gaza concur on the selection of subaward
recipients and/or the substantive provisions of the subawards?
USAID/West Bank and Gaza did not concur on the selection of subaward recipients
and/or the substantive provisions of the subawards. The reason why, is USAID/West
Bank and Gaza was not required to concur on the subawards and/or substantive
provisions of the subawards based on the USAID/West Bank and Gaza’s Mission Order
No. 17, Construction Oversight under Cooperative Agreements.


1
  Vetting—reviewing organizations and individuals by the U.S. Government to ensure
that the organizations or individuals are not affiliated with terrorism


                                                                                             4
USAID/West Bank and Gaza issued Mission Order No. 17 providing a description of
Mission policy and procedures for substantial involvement in cooperative agreements
with regard to construction activities, and to provide a description of Mission procedures
for oversight of construction activities under a cooperative agreement. The latter
describes the arrangement with USAID’s cooperative agreement with ANERA.
USAID/West Bank and Gaza issued this order in response to Automated Directive
System 303.5.11a that addresses substantial involvement under cooperative
agreements.

According to the Mission’s policy, the specific construction activities requiring substantial
involvement by the Mission are (1) a single construction activity with an estimated cost
over $500,000, or (2) a construction activity which has a particular potential to be
hazardous to the health or safety, and/or have potential detrimental environmental
consequences. In these two cases, the construction activities must be authorized before
signing the cooperative agreement. Conversely, construction activities under a
cooperative agreement not requiring substantial involvement are to be described in the
annual implementation plans and submitted to the Mission for review and approval.

ANERA implemented 59 projects as of March 31, 2005, with a total estimated cost of
approximately $2.8 million. Under its cooperative agreement with USAID/West Bank
and Gaza, ANERA awarded construction subcontracts ranging from $5,000 to $300,000
to local construction companies operating in the West Bank to perform small scale
construction activities involving building and infrastructure repair. USAID/West Bank and
Gaza approved the projects during its review of ANERA’s annual implementation plans
in accordance with the Mission’s policy. Furthermore, USAID/West Bank and Gaza
approved ANERA proposed changes to project scope and budgets identified during the
project implementation stages in accordance with the terms of the cooperative
agreement.


Other Matters

To test for compliance with USAID’s policy and terms and provisions of the cooperative
agreement, we relied on the Cognizant Technical Officer’s (CTO) files. Though we were
able to locate sufficient evidence to demonstrate the CTO’s level of substantial
involvement in the oversight of USAID’s agreement with ANERA, the CTO did not
maintain organized files. Although no criteria specify the content and organization of the
CTO files, it would benefit the strategic objective team if pertinent correspondence
evidencing approvals and CTO involvement were organized in a systematic manner. By
doing so, the strategic objective team would be able to access the data more efficiently,
and it would strengthen reliance that USAID’s files are current, accurate, and complete.




                                                                                           5
                                                                           APPENDIX I



SCOPE AND METHODOLOGY
Scope

The Regional Inspector General/Cairo conducted this audit in accordance with U.S.
generally accepted government auditing standards. This audit was designed to answer
the following two questions: (1) Did USAID/West Bank Gaza approve ANERA’s
implementation plans to ensure proposed activities complied with the statutory
requirements prohibiting the award of U.S. funds to Palestinian Authority ministries,
municipalities or other local government entities? (2) Did USAID/West Bank Gaza
concur on the selection of sub-award recipients and the substantive provisions of the
sub-awards?

To answer the first audit objective, the scope included ANERA’s implementation plans
submitted in October 2002 and November 2003 and review of the Cognizant Technical
Officer’s (CTO) files supporting USAID/West Bank and Gaza’s substantial involvement in
the review and approval of the plans. To answer the second audit objective, the audit
universe included 31 municipalities and village councils within the West Bank that
received grants from ANERA. Within these 31 municipalities and village councils,
ANERA subcontracted for a total of 59 community infrastructure projects. To answer
both objectives, the audit included USAID/West Bank and Gaza’s CTO’s files maintained
for the projects implemented under ANERA’s cooperative agreement from August 30,
2002, through March 31, 2005.

In planning and performing the audit, we assessed the effectiveness of internal controls
related to USAID/West Bank and Gaza’s substantial involvement in managing its
cooperative agreement with ANERA. We identified USAID’s significant internal controls
as (1) maintaining document support evidencing the USAID’s approval of ANERA’s
implementation plan, (2) maintaining documentation support evidencing USAID approval
of ANERA’s changes to the projects, and (3) maintaining supporting documentation
evidencing USAID joint concurrence with ANERA on the selection of the projects.

We reviewed and considered the following types of evidence in formulating our audit
results:

   •   Testimony from USAID/West Bank and Gaza’s Cognizant Technical Officer,
   •   CTO correspondence files,
   •   ANERA’s implementation plans,
   •   ANERA’s proposal,
   •   ANERA’s quarterly reports,
   •   Testimony from representatives from ANERA,
   •   Supporting documentation that ANERA maintained to substantiate the
       management and control of USAID funds,
   •   Supporting documentation demonstrating the vetting of subcontractors and key
       officials.


                                                                                      6
                                                                              APPENDIX I



Relevant criteria included the terms and conditions under Cooperative Agreement No.
294-A-000229-00, Automated Directives System section 303, USAID/West Bank and
Gaza’s Mission Orders, USAID/West Bank and Gaza’s implementation instructions for
Executive Order 13224 - Blocking Property and Prohibiting Transactions With Persons
Who Commit, Threaten To Commit, Or Support Terrorism. We reviewed prior financial
audit results of ANERA and identified one instance of noncompliance applicable to the
subject of this audit.

As of March 31, 2005, ANERA had implemented 59 projects with a total estimated cost
of approximately $2.8 million, under its Job Opportunities through Basic Services
program.

This report summarizes the results of our audit work. The fieldwork for this audit was
performed in Tel Aviv and Jerusalem from May 16, 2005, through May 20, 2005.


Methodology
To answer the first audit objective, we conducted an interview with the Cognizant
Technical Officer to determine USAID/West Bank and Gaza’s level of substantial
involvement in its cooperative agreement with ANERA. We reviewed the pertinent
documentation within the CTO’s file to determine if USAID had sufficient and adequate
support to demonstrate its involvement. Specifically, we verified that ANERA submitted
the required implementation plans providing details of the specific activities it supported.
For local governments identified as subgrant recipients, we reviewed the CTO files to
determine if the CTO investigated how the partnering arrangement between ANERA and
the local government would operate. We reviewed documentation substantiating
USAID/West Bank and Gaza’s approval of ANERA’s implementation plans. We also
reviewed supporting document to substantiate that vetting procedures were followed for
ANERA’s subcontractors.

Furthermore, we interviewed representatives with ANERA and selected four projects to
examine further how the grant award mechanism worked between ANERA and the local
government partners. We selected the four projects based on criteria of selecting from
two different village councils and two different municipalities. For each award selected,
ANERA provided copies of bank documents verifying the names of the bank accounts.
We verified that the bank documents identified ANERA’s name on the account and that
ANERA’s representative with signature approval on the account was a key employee of
ANERA. For each of the four selected projects we traced the payment amount from the
contractor’s invoice to ANERA’s instructions to the bank for payment and to the issued
check. We reviewed each bank check and confirmed that ANERA representatives with
signature authority signed the check. In addition, we verified that the supplier noted on
the invoice agreed with the payee identified on the face of the check.

To answer the second audit objective, we reviewed the terms of the cooperative
agreement to identify the extent of USAID/West Bank and Gaza’s involvement in the
subaward process. We determined that ANERA was to provide a description of the
projects within it implementation plans for USAID approval. Therefore, we identified the
universe of projects that ANERA implemented under its cooperative agreement. We



                                                                                          7
                                                                               APPENDIX I


judgmentally sampled 33 out of 59 projects based on the criteria to select at least one
project from each of the participating municipalities and local village councils. We
selected two projects from the municipalities in Jericho and Ramallah to allow for a
larger coverage of the dollars. We conducted the following tests for each:

   •   Verified that ANERA presented the project description and the proposed grantee
       to USAID for approval.
   •   Verified that USAID/West Bank Gaza had evidence to support approval of the
       project.
We did not determine materiality threshold for evaluating results since the audit is testing
for compliance with legislative prohibitions.




                                                                                          8
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
